               OFfICE O}" INSPECTOR (;l~NEllAL


                                      JUL 1 9 2012
TO: 	          Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services
                     /S/
FROM:          Stuart Wright
               Deputy Inspector General
                  for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Few Adverse Events in Hospitals Were Reported to
           State Adverse Event Reporting Systems, OEI-06-09-00092

This memorandum report provides information requested by officials of the Centers for
Medicare & Medicaid Services (CMS) about hospital reporting of adverse events to State
reporting systems. The Office of Inspector General (OIG) collected this information
while conducting a 2001 - 2012 series of studies about adverse events in hospitals.

SUMMARY
Previous ora work found that an estimated 27 percent of Medicare beneficiaries
hospitalized in October 2008 experienced harm from medical care, either serious adverse
events (defined as events resulting in prolonged hospitalization, permanent disability,
life-sustaining intervention, or death) or temporary hann events (defined as events
requiring intervention but not resulting in lasting harm). To determine this rate of
adverse and temporary harm events (referred to collectively as events), we examined
medical records for a nationall.y representative sample of 780 hospitalized Medicare
beneficiaries in October 2008. Prior OIG work also found that in 2008, about half of
States operated adverse event reporting systems to monitor the occurrence of events in
hospitals. Typically, these States required hospitals to report only specific types of
events and analyzed the events in aggregate. This memorandum extends our prior work
by providing national estimates for the extent to which events experienced by Medicare
beneficiaries occurred in States that operated adverse event reporting systems, whether
States required reporting of the identified events, and whether the hospitals reported the
events to the State systems.

We found that an estimated 60 percent of adverse and temporary harm events nationally
occurred at hospitals in States with reporting systems, yet only an estimated 12 percent of
events nationally met State requirements for reporting. We also found that hospitals
reported only 1 percent of events. Most of the events that States required to be reported,
but that hospitals did not report, were not identified by internal hospital incident reporting
systems. This suggests that low reporting to State systems is more likely the result of
hospital failure to identify events than from hospitals neglecting to report known events.
Page 2 – Marilyn Tavenner


BACKGROUND
Adverse Events in Hospitals
Beginning in 2008, OIG released a series of reports regarding adverse events in hospitals.
For the report Adverse Events in Hospitals: National Incidence Among Medicare
Beneficiaries, we conducted a physician review of medical records for a nationally
representative sample of 780 Medicare beneficiaries hospitalized in October 2008. We
found that an estimated 13.5 percent of hospitalized Medicare beneficiaries experienced
adverse events. An additional 13.5 percent of beneficiaries experienced temporary harm
events.1

For the report Hospital Incident Reporting Systems Do Not Capture Most Patient Harm,
we determined whether the 189 hospitals where these events occurred had identified the
events through their internal incident reporting systems. We found that all the hospitals
had incident reporting systems designed to capture staff reports regarding adverse events,
yet hospital staff reported only 14 percent of events experienced by Medicare
beneficiaries.2 Hospital administrators indicated that staff often did not report events
because they identified them not as patient harm, but rather as expected side effects.

State Adverse Event Reporting Systems
In the 2008 report Adverse Events in Hospitals: State Reporting Systems, we found that
25 States and the District of Columbia (hereinafter referred to as 26 States) operated
systems to collect adverse event data submitted by hospitals.3 All these State systems
received event descriptions and hospital names, but varied as to whether they made
reporting voluntary or mandatory, what types of events they specified should be reported,
and what additional information they asked hospitals to report. Most State systems
required hospitals to report a subset of adverse events, usually serious events resulting in
permanent disability or death, and events likely to affect the broader hospital population,
such as infections. To date, no Federal standards require States to operate adverse event
reporting systems.

States with adverse event reporting systems used the reported information both to hold
hospitals accountable and to promote learning about adverse events. Twenty-three of the
twenty-six States with reporting systems routinely investigated reported events.
Additionally, 18 of the 26 States used event reports to provide patient safety information
and educational tools to hospitals, including the State incidence of adverse events, early
warnings of new or widespread threats to patient safety, and analysis of contributing
factors.4




  1
    OIG, Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries,
OEI-06-09-00090, November 2010.
  2
    OIG, Hospital Incident Reporting Systems Do Not Capture Most Patient Harm, OEI-06-09-00091,
January 2012.
  3
    OIG, Adverse Events in Hospitals: State Reporting Systems, OEI-06-07-00471, December 2008.
  4
    Ibid.
Page 3 – Marilyn Tavenner


METHODOLOGY
We reviewed State policies to determine which events identified in our previous study
were ones that States required hospitals to report. We then collected any reports about
these events that hospitals sent to States. Based on the national random sample of
hospitalized Medicare beneficiaries, we projected rates for the following: events
experienced by Medicare beneficiaries that occurred in States that operated adverse event
reporting systems in 2008 and events that these States required hospitals to report to the
State systems. Appendix A contains estimates and confidence intervals for these
statistics. We also determined which events hospitals reported to these State systems.

STANDARDS
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS
Although half of States operated adverse event reporting systems in 2008, only
12 percent of events met State requirements for reporting
An estimated 60 percent of adverse and temporary harm events nationally occurred at
hospitals in States with reporting systems, yet only an estimated 12 percent of events
nationally met State requirements for reporting. Of the events that States required to be
reported, over half occurred in Pennsylvania, which required reporting of all events
regardless of severity.5 Table 1 breaks down the events by whether they were required to
be reported to State systems.

Table 1: Percentage of Hospital Events, by State and Whether State Required
Event to be Reported
 Whether State Required Event to be Reported                                                         Percentage of All Events
 Event Occurred in State With Adverse Event Reporting System                                                            60%
      Event did not meet State reporting requirements                                                                   49%*
      Event met State reporting requirements                                                                            12%*
 Event Occurred in State Without Adverse Event Reporting System                                                         40%
 Total Events                                                                                                          100%
Source: OIG analysis of the 293 information requests completed by hospitals where events occurred.
* Percentages do not sum to 60 percent because of rounding.


Hospitals reported very few sampled events that States required to be reported
Within our sample, hospitals reported only 3 of the 35 events required to be reported to a
State reporting system. All 3 of these reported events occurred in Pennsylvania, which
had a total of 22 events among sampled beneficiaries Statewide. All three of the reported
events caused temporary harm to beneficiaries and were of types commonly targeted by
hospital patient safety efforts (allergic reaction, fall, and pressure ulcer).




  5
      Pennsylvania: 40 P.S. § 1303.313.
Page 4 – Marilyn Tavenner


Nearly all unreported events also went undetected by internal hospital incident reporting
systems. Of the 32 events that hospitals did not report to State systems as required,
hospitals identified only 1 event within an internal incident reporting system. For the
remaining 31 events, hospitals had no record indicating that staff recognized the event
had occurred. This suggests that the low rate of reporting to State adverse event reporting
systems is due largely to hospital staff not identifying incidents of harm as reportable
events.

Many of the events not reported to State systems as required involved serious harm to
hospitalized Medicare beneficiaries. Six of the thirty-two events contributed to patient
death, including cases involving lack of patient monitoring and missed diagnoses. For
example, one patient death was the result of acute renal failure caused by the hospital not
recognizing and treating a serious systemic inflammatory response syndrome
(bacteremia). Another patient death was the result of poor insulin management escalating
to a hypoglycemic coma. Other unreported events required the use of life-sustaining
interventions, indicating that hospital staff were clearly alerted to a problem but still did
not report the events.

Further, the less serious, temporary harm events that hospitals did not report included
many events that can become serious if not ameliorated, such as excessive bleeding and
intravenous volume overload. The treatment required to stop the progression of these
events also implies that in each case, hospital staff were likely aware of the patient’s
condition but did not perceive the condition as an event.

Table 2 lists the events in our sample that States required to be reported to adverse event
reporting systems, whether hospital staff reported these events to incident reporting
systems within the hospitals, and whether the events were reported to the State systems.
Page 5 – Marilyn Tavenner


Table 2: Adverse Events That Required Hospital Reporting to State Adverse
Event Reporting Systems (n=35)
                                                                                               Reported      Reported to
State                        Type of Event                                Level of Harm
                                                                                            within Hospital State System
CA                     Excessive bleeding                          Contributed to death
CO                  Blood stream infection                         Contributed to death
IN                                      Fall                    Prolonged hospital stay
IN                   Pulmonary embolism                         Prolonged hospital stay
KS                     Excessive bleeding                          Contributed to death
MD                     Excessive bleeding                       Prolonged hospital stay              •
MD                     Excessive bleeding                       Prolonged hospital stay
MD                    Hypoglycemic coma                     Life-sustaining intervention
MD                            Hypotension                       Prolonged hospital stay
MD                       Catheter infection                     Prolonged hospital stay
NJ                     Excessive bleeding                          Contributed to death
NJ                    Hypoglycemic coma                            Contributed to death
NY                  Blood stream infection                         Contributed to death
PA                      Acute renal failure                            Temporary harm
PA                      Acute renal failure                            Permanent harm
PA                        Allergic reaction                            Temporary harm                •                  •
PA                        Allergic reaction                            Temporary harm
PA                 Congestive heart failure                     Prolonged hospital stay
PA                            Dysrhythmia                              Temporary harm
PA                     Excessive bleeding                              Temporary harm
PA                     Excessive bleeding                              Temporary harm
PA                                      Fall                           Temporary harm                •                  •
PA                   Nausea and vomiting                               Temporary harm
PA                          Pressure ulcer                             Temporary harm                •                  •
PA                   Pulmonary embolism                         Prolonged hospital stay
PA                                   Sepsis                 Life-sustaining intervention
PA                                Skin tear                            Temporary harm
PA                            Surgical tear                            Temporary harm
PA                        Urinary retention                            Temporary harm
PA                   Urinary tract infection                           Permanent harm
PA           Intravenous volume overload                        Prolonged hospital stay
PA           Intravenous volume overload                               Temporary harm
PA           Intravenous volume overload                               Temporary harm
PA           Intravenous volume overload                               Temporary harm
TN                      Acute renal failure                     Prolonged hospital stay
Source: OIG analysis of information provided by hospitals regarding 293 identified events, 2011. Level of harm from the National
Coordinating Council for Medication Errors Reporting and Prevention Index for Categorizing Errors, Press Release, Medication
Errors Council Revises and Expands Index for Categorizing Errors: Definitions of Medication Errors Broadened, June 12, 2001.



CONCLUSION
Although half of States operated adverse event reporting systems in 2008, hospitals
reported few events to State systems. For all but one event that was not reported to State
systems as required, the hospitals did not identify the events within internal incident
reporting systems. This indicates that low reporting to State systems is more likely to
result from hospital failure to identify events than from hospitals’ neglecting to report
known events. CMS, States, and other stakeholders should be aware of this low rate of
reporting to State systems as they consider strategies to reduce adverse events in
hospitals.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this memorandum report, please provide them
within 60 days. Please refer to report number OEI-06-09-00092 in all correspondence.
Page 6 – Marilyn Tavenner


APPENDIX A

Estimates and Confidence Intervals

We computed estimates and corresponding 95-percent confidence intervals using
appropriate statistical methods based on the sample.

Table A: Hospital Adverse Events and State Reporting (n=293)
                                                                                                 95-Percent
                                                                                  Point       Confidence Interval
 Adverse Event
                                                                              Estimate        Lower       Upper
                                                                                              Bound       Bound
 Event Occurred in State With Event Reporting System                             60.4%         52.5%       67.8%
     Event did not meet State reporting requirements                             48.5%          40.9%       56.1%
     Event met State reporting requirements                                      12.0%           8.2%       17.2%
 Event Occurred in State Without Event Reporting System                          39.6%         32.2%       47.5%
 Total Events
Source: OIG analysis of the 293 information requests completed by hospitals where events occurred.
